 

In THE
SUPREME COURT OF THE UNITED STATES

DAVID SHINN, ET AL.,
PETITIONER,
~va-

GEORGE RUSSELL KAYER,
RESPONDENT.

STATEMENT OF MAILING
AFFIDAVIT OF SERVICE
CAPITAL CASE

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI

MARK BRNOVICH
ATTORNEY GENERAL

ORAMEL H. (O.H.) SKINNER
SOLICITOR GENERAL

LACEY STOVER GARD
CHIEF COUNSEL
|APITAL LITIGATION SECTION

COUNSEL OF RECORD)
400 W. CONGRESS, 8-315
TUCSON, ARIZONA 85701
LACEY.GARD@AZAG.GOV
CADOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520

ATTORNEYS FOR PETITIONER,

 
AFFIDAVIT

STATE OF ARIZONA +s

County of Pima

Lacey Stover Gard, being first duly sworn upon oath, deposes and says:

That she is a member in good standing of the United States Supreme Court
Bar. That on February 18, 2020 she caused to be shipped by Federal Express, an
Original and 2 Copies of Petitioner’s Application for Extension of Time to file
Petition for Certiorari in David Shinn, et al. v. George Russell Kayer, to:

Scott Harris, Clerk of the Court
United States Supreme Court
Office of the Clerk

1 First Street, N.E.
Washington, D.C. 20543

and caused to be deposited in a United States Post Office, first-class postage

prepaid, one copy addressed to:

Jennifer Garcia

Assistant Federal Public Defender
850 West Adams Street, Suite 201
Phoenix, Arizona 85007

That to her knowledge the Federal Express shipping and mailing of the Petitioner’s

Application for Extension of Time to File Petiflion for Certiorari, took place on

   

Notary Public

 
